    AUDIT OF NARA'S 

CHANGE CONTROL PROCESS 


   OIG Report No. 09-09 





       May 11, 2009 

                                                                               OIG Audit Report No. 09-09


EXECUTIVE SUMMARY

The National Archives and Records Administration (NARA) Office oflnspector General
(OIG) completed an audit ofNARA's Change Control Process. Change Control is a
formal process used to ensure that changes to Information Technology (IT) systems are
introduced in a controlled and coordinated manner and are assessed and approved by
management before their implementation. During the audit, we assessed the process to
determine whether NARA authorizes, documents, tests, and controls changes to their
information systems. To accomplish our review, we selected nine operational systems,
which had recent system changes and/or supported NARA's core mission. For each of
these systems, we evaluated a sample of system changes.

To adequately manage the change control process, NARA must put controls in place to
prevent, detect, and correct unauthorized or unintended changes to their information
systems. According to the National Institute of Standards and Technology (NIST), a
change control process should involve a systematic proposal, justification,
implementation, test/evaluation, review, and disposition of all changes to an information
system.

Our review found that NARA did not authorize, document, test, and control all changes
to their information systems. Specifically, we found NARA did not always

         Authorize or document all system changes; 

         Complete security impact analysis prior to approving and implementing changes; 

         Fully test changes prior to implementation; 

         Adequately manage and control emergency changes; and 

         Employ automated mechanisms to document proposed changes to high impact! 

         systems. 


A formalized and rigorously enforced change control process brings uniformity and
structure to the function. Ultimately, this very process serves to ensure conformity with
NIST guidance and most importantly protect the integrity and content oflT systems and
the data residing upon them. Conversely, a decentralized, laissez-faire approach may
adversely impact an organization, such as NARA.

Establishing controls over the modification of information systems helps to ensure that
only authorized programs and authorized modifications are implemented. Without
proper controls, there is a risk security features could be inadvertently or deliberately
omitted or "turned off' or that processing irregularities or malicious code could be
introduced. This places NARA at risk of disruption, fraud, or inappropriate disclosure of
sensitive information. Also, without a formal review process, rapid changes to
information systems could result in unforeseen technical problems or the use of
inadequate risk analysis and testing. Finally, weaknesses in the change control process


1 A high impact system is an infonnation system in which at least one security objective (confidentiality,
integrity, and availability) is rated as high.
                                                  Page 1
                               National Archives and Records Administration
                                                                       GIG Audit Report No. 09-09


could limit NARA's ability to effectively protect the confidentiality, integrity, and
availability of its systems and information.

We made nine recommendations that when implemented will improve NARA's change
control process and enhance the security ofNARA information systems.




                                           Page 2
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 09-09


BACKGROUND

Federal Information Processing Standards Publication (FIPS PUB) 200, Minimum
Security Requirements for Federal Information and Information Systems, specifies
minimum security requirements for federal information systems. FIPS PUB 200 directs
federal agencies to meet the minimum security requirements through the use of the
security controls outlined in NIST Special Publication (SP) 800-53, Recommended
Security Con troIs for Federal Information Systems. One of the controls outlined in NIST
SP 800-53 is configuration change control, which involves the systematic proposal,
justification, implementation, test/evaluation, review, and disposition of changes to the
information system, including upgrades, and modifications.

The selection of appropriate security controls is a risk-based activity that should take into
consideration the security categorization (i.e. High, Moderate, and Low) of each
information system. For example, systems identified as high impact should have more
stringent controls than systems identified as low impact. NIST SP 800-53 provides
different levels of controls for each categorization, such as the supplemental guidance
and control enhancements for moderate and high risk systems. FIPS 200 also requires
organizations to develop and promulgate formal, documented policies and procedures
governing the minimum security requirements set forth in FIPS 200 and must ensure their
effective implementation.

NARA has developed various levels of guidance, polices, and procedures relating to
change controls. For instance, the Enterprise Architecture (EA) Configuration
Management Procedures specifies the procedures used to establish, modify, and manage
all EA work products. In addition, NARA's System Development Lifecycle directive
includes Configuration Management Guidelines for the implementation and maintenance
ofNARA IT systems. Finally, NARA's IT Security Policy states that for moderate or
high integrity information systems, NARA:

   Monitors changes to each information system and conducts security impact analyses
   to determine the effects of the changes.
   Approves individual access privileges and enforces physical and logical access
   restrictions associated with change to each information system and generates, retains,
   and reviews records reflecting all such changes.

Prior audit reports and reviews have identified weaknesses in NARA's configuration
management. Since 2004, weaknesses in Configuration Management have been
identified as a reportable condition on the each of the annual audits ofNARA's Financial
Statements. Some of these weaknesses were related to NARA's Change Control Process.
In particular, proper approvals were not obtained for changes to NARANet and the
Records Center Program Billing System (RCPBS). Also, a review conducted by Science
Applications International Corporation (SAlC), found that while NARA policies provide
guidance on management, operational, and technical security mechanisms, they are
neither comprehensive nor specific enough to NARA to be measurable or enforceable. In
addition, NARA policies are only partially implemented.

                                           Page 3
                        National Archives and Records Administration
                                                                               OIG Audit Report No. 09-09




The responsibilities associated with NARA's Change Control Process mainly fall under
the Office ofInformation Services (NH). Specifically, the Information Technology
Services Division (NHT) is responsible for coordinating and implementing upgrades and
enhancements to NARA's existing infrastructure and the System Development Division
(NHV) helps develop major enhancements of information technology (IT) applications
and systems. In addition, some system owners outside ofNH are responsible for
managing their system's Change Control Process.


OBJECTIVE, SCOPE, METHODOLOGY

The objective of this audit was to determine whether NARA authorizes, documents, tests,
and controls changes to its information systems. Specifically, we determined whether the
NARA change control process included (a) documenting, approving, testing, and
reviewing of system changes; (b) security impact analysis; and (c) adequate management
and control of emergency changes.

We examined applicable laws, regulations, NARA guidance, and other IT-related
guidance, including (a) FIPS PUB 200, Minimum Security Requirementsfor Federal
Information and Information Systems; (b) NIST SP 800-53, Recommended Security
Controls for Federal Information Systems; (c) NIST SP 800-53A, Guidefor Assessing
the Security Controls in Federal Information Systems; (d) Government Accountability
Office (GAO) Federal Information System Controls Audit Manual; (e) NARA 812,
Enterprise Architecture; and (f) NARA 805, Systems Development Lifecycle.

To accomplish our objective, we reviewed NARA's change control activities and
documentation and selected a sample of information systems to perform detailed audit
tests. We reviewed nine2 operational NARA systems, which had system changes during
the six month period prior to audit field work and/or directly supported NARA's mission.
For each ofthese systems, we selected a judgmental sample of system changes to review.
This sample included 52 system changes. We also met with system owners and other
officials involved in the change control process. The review of the selected systems and
system changes allowed us to conduct a program level review ofNARA's change control
process.

Our audit work was performed at Archives II in College Park, MD between June 2008
and December 2008. We conducted this performance audit in accordance with generally
accepted government aUditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.



2   See Attachment I for a list of systems reviewed.
                                                   Page 4
                                National Archives and Records Administration
                                                                              OIG Audit Report No. 09-09


FINDINGS AND RECOMMENDATIONS

System Changes Not Always Documented and Approved

NARA has not authorized and documented all changes to their infonnation systems. This
condition occurred because NARA has an infonnal and decentralized change control
process. In addition, some NARA policies and procedures are outdated. By not
authorizing and documenting changes, there is a risk that unauthorized programs and
modifications could be implemented or security features could be unknowingly altered.

NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
requires agencies to authorize, document, and control changes to infonnation systems.
To meet this requirement, NIST SP 800-53 provides supplemental guidance, which states
the organization should manage changes using an organizationally approved process,
such as a chartered Configuration Control Board (CCB). The supplemental guidance also
states that configuration change control involves the systematic proposal, justification,
implementation, test/evaluation, review and disposition of changes to the infonnation
system, including upgrades and modifications.

However, we found that NARA has not authorized and fully documented all changes to
their infonnation systems. For example, approvals were not documented for over 63%
(33 of 52) ofthe change requests reviewed. In some instances, the documentation of
approval was not included in their change control procedures. In addition, some of the
changes were not fully documented. For instance, one system maintained their list of
changes in Microsoft Excel. However, this list provided limited detail or infonnation
regarding each change.

This occurred because NARA has a decentralized change control process with varying
degrees offonnality. For instance, the Network and Infrastructure Systems CCB reviews
and approves changes that affect NARANet, whereas individual application CCBs review
and approve application changes. These application CCBs have different change control
protocol and procedures. For example, some system changes3 are approved during CCB
meetings and are not documented in a fonnal change request fonn. The use of a
standardized change request fonn helps ensure requests are clearly communicated and
approvals are documented. In other cases, the change request documentation indicated
CCB approval was not needed. These reasons included:
    A member ofthe Technical Review Board detennined that the change did not require
    CCB approval.
    The requested change was a critical security related issue and was automatically
    granted CCB approval.
Consequently, approvals ofNARA system changes were not always documented.

In addition, four ofthe systems reviewed (AERIC, CMRS, PERL, and PPMS) had not
developed or documented sufficient change control procedures. . In some cases4 , a CCB

3   This was noted for the eDGCS and AERIC systems.
4   This was noted in the charters for CMRS, PERL, and PPMS.
                                                  Page 5
                               National Archives and Records Administration
                                                                         OIG Audit Report No. 09-09


charter or plan was developed; however, it did not fully address change control policies
and procedures, such as who can authorize a modification and how these authorizations
should be documented. When asked why a Configuration Management Plan was not
developed, one system manager stated a determination was made that procedures were
not needed. However, during audit fieldwork, the contractor was tasked by management
with developing a Configuration Management Plan for that system

Finally, some confusion may be attributed to the use of an older NIST Handbook.
Specifically, in the IT Security Mechanisms document ofNARA's Enterprise
Architecture, it states that NARA's configuration management will be based on NIST SP
800-12 5, An Introduction to Computer Security, which describes configuration
management as the process of keeping track of changes to the system, and if needed,
approving them. However, NIST considers this publication to be a broad overview of
computer security that discusses the benefits of various security controls. Although
useful to learn the basics of computer security, this document was written in 1995 and
does not specify requirements or describe the detailed steps necessary to implement a
computer security program.

Establishing controls, such as adequate documentation and approvals, over the
modification of application software programs helps to ensure only authorized programs
and authorized modifications are implemented. Without proper controls, there is also a
risk that security features could be inadvertently or deliberately omitted or "turned off' or
that processing irregularities or malicious code could be introduced.

Recommendation 1

We recommend the CIO enforce a more formal and centralized change control process.

Recommendation 2

We recommend the CIO ensure all systems have adequate and documented change
control procedures.

Management Comment(s)

Management concurred with the recommendations.




5 NIST 800-53, Recommended Security Controls for Federal Information System, provides more
comprehensive and updated recommendations for change controls.
                                            Page 6
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 09-09


Security Analysis Not Conducted

NARA did not always complete or document the security impact analysis prior to
approving and implementing changes to their information systems. This occurred
because NARA's change control procedures and guidance do not require a security
analysis. Also, the Request for Change (RFC) form 6 does not include a space to
document adjustments or potential impacts to security resulting from the proposed
change. Without a security impact analysis, changes could be introduced into NARA
systems that increase the risk of a security incident.

We found that NARA did not always complete or document the security impact analysis
prior to approving and implementing changes to their information systems. Specifically,
in our review of 52 change requests, at least 44 were approved without any documented
review of a security impact analysis. These change requests were for systems rated as
moderate or high impact systems and these weaknesses were noted for each of the nine
systems reviewed.

For systems classified as Moderate and High impact, NlST SP 800-53 requires that
approvals to implement a change to an information system include successful results
from the security analysis ofthe change. Also, NARA's Enterprise Architecture IT
Security Policy states that NARA conducts security impact analyses to determine the
effects of system changes for moderate or high integrity systems. However, NARA's
change control procedures and guidance do not require security analysis prior to
implementing changes. NARA's Configuration Management Procedures and Systems
Development Guidelines only require an impact assessment, which includes changes in
scope, cost, schedule, resource needs and integration ramifications. Security is not
included as a requirement of this impact assessment. Management stated that this was an
oversight in the policy.

Further, the RFC form that most systems use to document system changes does not
include a space to document adjustments or potential impacts to security resulting from
the proposed change. The Information Technology Operations Chief agreed that security
impact could be added to the RFC form.

Some system owners stated that not all changes affect system security and if there had
been any security related changes, the IT Security Staff (NHI) would have been
contacted. However, such information was not noted in the documentation of system
changes for systems such as CMRS, AERIC, and ARC.

Management agreed that a formal security impact analysis was not part of their change
control process. Impacts to security are usually considered before implementing system
changes, but are not always documented. Instead, a member ofNHI generally attends the
CCB meetings and is aware of some system changes. We were also informed that within

6 The Request for Change form is used to track and manage system changes requiring formalized
assessments and approvals. This form is used for changes reviewed and approved by the Network
Infrastructure CCB.
                                                Page 7
                           National Archives and Records Administration
                                                                      GIG Audit Report No. 09-09


the last year the Security Operations Manager was included in NARANet system change
reviews. We found he had reviewed at least two system changes included in the sample.
However, this does not adequately fulfill the requirement for a security impact analysis.

Changes to an information system can have a significant impact on the security of the
system. Documenting information system changes and assessing the potential impact on
the security of the system is an essential aspect of maintaining the security posture. An
effective control policy and associated procedures are essential to ensuring adequate
consideration of the potential security impact of specific changes to a system.

Without a security impact analysis, changes could be introduced into NARA systems that
increase the risk of a security incident. By not documenting or requiring a security
analysis, NARA lacks assurance that proposed changes could adversely affect IT system
security.

Recommendation 3

We recommend the CIO enforce and if necessary update NARA procedures to require
security analysis prior to implementing system changes and provide guidance for when a
security analysis is warranted.

Recommendation 4

We recommend NHT modify the Request for Change (RFC) form to include a space to
document adjustments or potential impacts to security.

Management Comment(s)

Management concurred with the recommendations.


Inadequate Testing of Changes

NARA did not adequately test all changes prior to introducing them into IT systems as
suggested by Federal regulations. This occurred because of a lack of guidance regarding
the testing of system changes. Inadequate testing can have a significant impact on system
data reliability and availability.

According to NIST SP 800-53 adequate configuration change control involves systematic
testing of system changes. The Federal Information System Controls Audit Manual
(FISCAM), states that a disciplined process for testing and approving new and modified
programs prior to their implementation is essential to make sure programs operate as
intended and that no unauthorized changes are introduced. The extent of testing varies
depending on the type or extent of the proposed modification.



                                          Page 8
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 09-09


A detailed test plan should be developed for each modification defining the levels and
types of tests to be performed. Because testing is an iterative process, it is important to
adhere to a formal set of procedures or standards. All test data, transactions, and results
should be saved and documented to facilitate future testing of other modifications and
allow a reconstruction if future events necessitate a revisit of the actual tests and results.
Also, test plans should be approved by all responsible parties.

However, we found that NARA did not adequately test all changes prior to
implementation. Specifically, test plans were not developed or maintained for 31 of the
52 system changes reviewed. Weaknesses were noted in all but one (ADRRES) of the
systems reviewed. In many instances, the RFC form, which requires a complete listing of
all steps and tests to be performed to assure that the intended results of the change have
been achieved, simply stated "to be determined". When asked for these test plans, none
were provided. In some cases, it was the responsibility of the contractor to develop such
test plans, but none were developed or could be provided. A contractor monitoring
process is in place; however, when a deficiency is noted, follow up is not always
completed to ensure the contractor corrects the problem.

NARA also lacked documentation and assurance that testing was completed prior to
introducing the system change into the production environment. Documented test results
could only be provided for three7 ofthe 52 system changes reviewed.

When asked why test plans and results were not documented, some system owners stated
that change requests were of low complexity and did not need a formalized test plan.
However, this was not documented in the request documentation. Additionally, some
systems do not have a test environment; therefore, testing cannot be done prior to
implementing the change into the production environment. Also, some changes can only
be testing once it has been placed into production and not prior. Consequently, a backup
plan or a rollback plan is developed, in case problems are encountered during the
implementation. Finally, there appears to be limited guidance on developing test plans
and documenting or maintaining the test results.

Minor modifications may require less extensive testing; however, changes should still be
carefully controlled and approved since relatively minor program code changes, if done
incorrectly can have a significant impact on overall data reliability and availability. For
example, in the system changes reviewed, at least two that were inadequately tested
caused a delay or disruption for system users. By not adequately testing changes prior to
implementation, NARA takes a chance that changes introduced to its systems could
adversely affect security and data.

Recommendation 5

We recommend that the CIO require the test plans and test results to be documented and
maintained.


7   The three changes were for the ADRESSIURTS, CMRS, and NARANet systems.
                                                 Page 9
                              National Archives and Records Administration
                                                                      OIG Audit Report No. 09-09




Recommendation 6

We recommend that the CIO develop guidance to aid in
   Developing test plans;
   Determining if a test plan is required and how to, document the decision if one is not
   required; and
   Maintaining the test results.

Management Comment(s)

Management concurred with the recommendations.


Emergency Changes Not Adequately Controlled

NARA did not adequately manage and control emergency or urgent changes to their
information systems as required by NIST. This condition occurred because NARA has
not established or mandated any additional controls for emergency change procedures.
Due to the critical nature of emergency changes, additional controls are needed to reduce
the risk of suspending or abbreviating normal controls and to prevent disruptions to IT
systems.

During our review, we found that NARA does not adequately manage and control
emergency or urgent changes. For instance, emergency change procedures have not been
developed or documented for all NARA information systems. Ofthe nine systems
reviewed, only three (ARC, ENOS, and NARANet) had additional procedures for
emergency changes. It is important to follow established procedures for emergency
changes to reduce the risk of suspending or abbreviating normal controls. For most
systems reviewed, post-emergency reviews were not required and consequently were not
conducted for all emergency changes. As a result, additional controls are not in place for
emergency changes.

Furthermore, similar to non-emergency changes, approval of change requests was not
always documented and sufficient testing and security analysis was not conducted prior
to implementation. In particular, we noted these weaknesses for the following systems:
AERIC, ARC, eDOCS, ENOS, NARANet, and PERL.

For systems classified as Moderate and High, NIST SP 800-53 requires that the
organization include emergency changes in the configuration change control process,
including changes resulting from the remediation of system flaws. In addition, the
FISCAM states that emergency procedures should specify the following:
           When emergency software changes are warranted;
           Who may authorize emergency changes;

                                         Page 10
                       National Archives and Records Administration
                                                                        OIG Audit Report No. 09-09



             How emergency changes are to be documented; and
             Within what period after implementation the change must be tested and
             approved.

FISCAM also states logs of emergency changes and related documentation should be
periodically reviewed by data center management or security administrators to determine
whether all such changes have been tested and received final approval.

NARA has not established or mandated any additional controls for emergency change
procedures. Specifically, NARA policies, procedures, and guidance related to change
controls do not address emergency changes. We found three systems with procedures for
emergency changes. However, NARA did not require system owners or project
managers to develop or document additional control procedures related to emergency
changes.

When asked about emergency changes, most system owners and project managers stated
that their systems did not have emergency changes and therefore, felt that emergency
change procedures were not necessary. However, due to the critical nature of emergency
changes, additional controls are needed to reduce the risk of suspending or abbreviating
normal controls. Pressure to make rapid changes to systems without a formal review
process often result in a critical system failure due to unforeseen technical problems.

Recommendation 7

We recommend

       (a)          CIO strengthens system change control policies and procedures to
                    include emergency change control procedures.

       (b)          System owners implement additional procedures to control emergency
                    changes.

Management Comment(s)

Management concurred with the recommendations.




                                           Page 11
                         National Archives and Records Administration
                                                                       DIG Audit Report No. 09-09


Automated Mechanisms Not Always Used

NARA does not always employ automated mechanisms to document proposed changes to
High impact systems. This occurred because NARA does not require all systems or all
systems categorized as High impact, to use PVCS Tracker or another automated
mechanism to manage system changes. Without these mechanisms, NARA High impact
systems are not as secure and there is an increased risk of unauthorized changes.

For systems categorized as High impact, NIST SP 800-53 requires organizations to
employ automated mechanisms to (a) document proposed changes to information
systems; (b) notify appropriate approval authorities; (c) highlight approvals that have not
been received in a timely manner; (d) inhibit change until necessary approvals are
received; and (e) document completed changes to the information system.

NARA does not always employ automated mechanisms to document proposed changes to
High impact systems. Specifically, automated mechanisms to document proposed and
completed changes were not employed for three NARA systems (AERIC, eDOCS, and
PERL) categorized as High impact. Instead, these systems use non-automated
mechanisms, such as meeting notes and Excel spreadsheets.

This occurred because NARA does not require or enforce all systems or all systems
categorized as High impact, to use PVCS Tracker or another automated mechanism to
manage system changes. In some cases, automated mechanisms may not be cost
effective for systems that do not have major system enhancements, such as AERIC.
However, if automated mechanisms are not employed, additional controls should be in
place to prevent unauthorized changes. These controls include restricting access to
implementing changes and reviewing access logs to ensure unapproved changes are not
occurring.

Automated mechanisms can notify appropriate approval authorities; highlight approvals
that have not been received in a timely manner; and inhibit change until necessary
approvals are received. Without these mechanisms, NARA High impact systems are not
as secure and there is an increased risk of unauthorized changes.

Recommendation 8

We recommend the CIO either require systems categorized as High impact to use an
automated system (such as PVCS Tracker) or implement additional controls.

Management Comment(s)

Management concurred with the recommendation.




                                          Page 12
                        National Archives and Records Administration
                                                                                                                              OIG Audit Report No. 09-09




                                                  ATTACHMENT 1: NARA Systems Reviewed

  System           Full Name                       Description                     Impact      System      Documentation         Security         Testing
 Acronym                                                                            Level     Changes      and Approval          Analysis        Weaknesses
                                                                                              Reviewed      Weaknesses          Weaknesses
ADRRES        Archival               Automates the process of reviewing             High         1
              Declassification       and redacting sensitive and classified                                                          X
              Review and             materials
              Redaction System
AERIC         Archival Electronic    Preserves the logical structure of             High         8
              Records Inspection     databases, and verifies that the records                                     X                  X                    X
              and Control            received are those supported by the
                                     accompanying documentation
ARC          Archival Research       Online catalog ofNARA holdings               Moderate       3
             Catalog                                                                                              X                  X                X
CMRS         Case Management         Provides workload management and               High         4
             and Reporting           processes to fulfill requests for military                                                      X                X
             System                  records
eDOCS        Electronic Document     Automates the creation of the daily            High         9
             Management System       Federal Register                                                             X                  X                X
ENOS/         Expanding NARA         Supports ordering and fulfilling of          Moderate       7
Order         Online Services        selected records reproductions online                                        X                  X                X
Online
NARANet      NARA Network            Primary general support system,                High         12
                                     providing standard desktop applications                                      X                  X                X
                                     and Internet access to NARA staff
PERL         Presidential            Used to ingest and provide internal            High         4
             Electronic Records      access to the Presidential electronic                                                           X                X
             Library                 records
PPMS         Personal Property       Provides property asset management           ModerateS      4
             Management System       for all NARA's personal property                                             X                  X                    X



S PPMS was categorized as "Low" on the system inventory; however, the revised Contingency Plan (dated August 22, 2008) rates the system as "Medium" for
data integrity. Using the high water method described in FIPS 199, we consider this system to be Moderate.

                                                                       Page 13
                                                     National Archives and Records Administration
                                                                                            Appendix A

                       National Archives and Records Administration
                                                                                          8601 Adelphi Road
                                                                         College Park, Maryland 20740-6001


                 MAY    5 2009
Date:
              OfFe of the Inspector General (OIG)
To:
             Jffice of Information Services (NH)
From:
             Revised Draft Report 09-09, Audit ofNARA's Change Control Process 

subject· 

             We have reviewed the revised draft OIG Report No. 09-09, March 10,2009, titled Audit of
             NARA's Change Control Process. We want to thank the auditor for meeting with NH staff to
             discuss the first set of comments sent to OIG on April 10, 2009. The changes that were made
             to the report following the meeting have resulted in our accepting the recommendations as
             written, or, in some cases, revised as agreed to in the meeting. We have copied the
             recommendations on the following pages and provide our concurrence on them individually.
             Ifwe have incorrectly copied the updated text from the revised report e-mailed to us on
             April 29, 2009, please let us know.

             Please thank Christine Dzara for working with us on revision to the original draft, and we look
             forward to working with her on developing an acceptable action plan once we receive the
             report in final. If you have any questions about our response, please call me or Steve Heaps
             on 837-3170.




             Assistant Archivist for Information Services




                                     NARA's web site is http://www.archives.gov
                                                                                   Appendix A



  Recommendation 1: We recommend the CIO enforce a more formal and centralized
  change control process.

  We concur with the recommendation. 


  Recommendation 2: We recommend the CIO ensure all systems have adequate and 

  documented change control procedures. 


 We concur with the recommendation. 


 Recommendation 3: We recommend the CIO enforce and if necessary update NARA 

 procedures to require security analysis prior to implementing system changes and 

 provide guidance for when a security analysis is warranted. 


 We concur with the recommendation .. 


 Recommendation 4: We recommend NHT modify the Request for Change (RFC) form 

 to include a space to document adjustments or potential impacts to security. 


 We concur with the recommendation. 


 Recommendation 5: We recommend that the CIO require the test plans and test results 

 to be documented and maintained. 


 We concur with the recommendation. 


Recommendation 6: We recommend that the CIO develop guidance to aid in 

   Developing test plans; 

   Determining if a test plan is required and how to, document the decision if one is not 

   required; and 

  Maintaining the test results. 


We concur with the recommendation.

Recommendation 7: We recommend':

            (a) CIO strengthen system change control policies and procedures to
include emergency change control proce<dures.

            (b) System owners implement additional procedures to control emergency
changes.

We concur with the recommendation.




                          N A R A's wph   .~jtp i.~   httn '//www nrr.hivps 9'nv
                                                                    Appendix A


Recommendation 8: We recommend the CIO either require systems categorized as
High impact to use an automated system, such as PVCS Tracker, or implement
additional controls.

We concur with the recommendation.




                      NARA 's web site is http://www.archives.gov
